No. 20A
_________
IN THE SUPREME COURT OF THE UNITED STATES
_________
CHARLES HAMNER,
Applicant,
v.
DANNY BURLS, ET. AL,
Respondents.
________
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
________
DANIEL M. GREENFIELD
Counsel of Record
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
NORTHWESTERN PRITZKER SCHOOL
OF LAW
375 East Chicago Avenue
Chicago, IL 60611
(312) 503-8538
daniel-greenfield@law.northwestern.edu
David M. Shapiro
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
NORTHWESTERN PRITZKER SCHOOL
OF LAW
375 East Chicago Avenue
Chicago, IL 60611
(312) 503-0711
david.shapiro@law.northwestern.edu
Amir H. Ali
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
777 6th Street NW, 11th Floor
Washington, DC 20001
(202) 869-3434
amir.ali@macarthurjustice.org
Counsel for Applicant Charles Hamner

February 18, 2020

No. 20A
_________
IN THE SUPREME COURT OF THE UNITED STATES
_________
CHARLES HAMNER,
Applicant,
v.
DANNY BURLS, ET. AL,
Respondents.
________
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
________
To the Honorable Neil M. Gorsuch, Associate Justice of the United States and
Circuit Justice for the Eighth Circuit:
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rule 13.5, applicant
Charles Hamner respectfully requests a 60-day extension, to and including May 8,
2020, within which to file a petition for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Eighth Circuit. Over three dissents, the
Eighth Circuit denied applicant’s petition for rehearing en banc on December 9, 2019.
Unless extended, the time to file a petition for a writ of certiorari will expire on March
9, 2020.
1.

Applicant, a seriously mentally ill Arkansas prisoner, was thrown in

solitary confinement after he “alerted prison authorities to a potential attack by
another inmate against a prison guard.” Slip Op. 2. (attached hereto at Attachment
A). Solitary confinement negatively “impacted [applicant’s] mental health,” including
2

by provoking suicidal ideations, hallucinations, and panic attacks. Slip Op. 3. And
applicant was denied any “meaningful” opportunity to challenge his social and
environmental isolation. Slip Op. 2-3.
2.

Applicant filed a pro se civil rights complaint pursuant to 42 U.S.C. §

1983, asserting that respondents, prison personnel, had violated his Fourteenth
Amendment rights by subjecting him to solitary confinement without procedural due
process protections. Slip Op. 3. Applicant also complained that prison personnel had
retaliated against him for filing grievances. Id.
3.

The district court screened applicant’s complaint under 28 U.S.C. 1915A

and ordered the retaliation claim served, but dismissed the procedural due process
claim, having concluded that approximately seven months of solitary confinement
“did not implicate a protected liberty interest” as a matter of law. Slip Op. 4.
Respondents then moved to dismiss the retaliation claim for damages on the basis
that they were entitled to qualified immunity. ECF 16 at ¶¶ 5-8. The district denied
respondents’ motion and permitted the retaliation claim to proceed. ECF 22.
4.

Applicant subsequently filed an amended pro se civil rights complaint, in

which he expanded upon his due process claim, renewed his retaliation claim, and
added two Eighth Amendment claims alleging unconstitutional conditions of
confinement and medical care, respectively. Slip Op. 4. Respondents moved to
dismiss, arguing pursuant to Federal Rules of Civil Procedure 12(b)(6), that applicant
had failed to state any claim. ECF 37 at ¶ 5. Notably, respondents did not claim

3

entitlement to qualified immunity from any claim. See ECF 37. The district court
granted respondents’ motion and dismissed the case in its entirety. Slip Op. 4.
5.

Applicant timely appealed. Id. On the papers and at oral argument,

applicant and respondents took divergent views of the merits, but none of the parties
raised qualified immunity. Slip Op. 5. At oral argument, however, the Eighth Circuit
raised the affirmative defense sua sponte. And after argument, the panel ordered
supplemental briefs “address[ing] whether any or all of the district court’s judgment
should be affirmed based on qualified immunity.” Slip Op. 5.
6.

Applicant argued in his supplemental brief that respondents had waived

or forfeited the affirmative defense for purposes of the pleading stage by claiming
entitlement to qualified immunity from the First Amendment retaliation claim but
not from the Eighth or Fourteenth Amendment claims. Applicant’s Supplemental Br.
2-5. Respondents conceded that they had not previously argued that qualified
immunity was a defense to applicant’s Eighth or Fourteenth Amendment claims, but
nonetheless argued that the Eighth Circuit should take the first crack at the question.
Resp’ts’ Supplemental Br. 1-3. Even then, respondents did not claim entitlement to
qualified immunity from applicant’s claim of constitutionally inadequate medical
care.
7.

The court of appeals affirmed “on the alternative ground that the

complaint does not adequately allege a violation of [applicant’s] clearly established
constitutional rights, so the [respondents] are entitled to qualified immunity.” Slip
Op. 2. Although acknowledging that respondents had not raised qualified immunity

4

below or on appeal, the majority reasoned that “[w]hether the allegations show a
violation of clearly established right is a purely legal issue that is amenable to
consideration for the first time on appeal.” Slip Op. 6. Because respondents would
raise qualified immunity on remand, there would be “nothing to be profited by [the]
procedural roundabout” of reaching the merits of applicant’s claims. Id. The majority
then held that no clearly established law prohibited respondents’ conduct. Slip Op. 713.
8.

Judge Erickson “reluctantly conclude[d] that [Eighth Circuit] precedent

precludes a finding of the existence of a clearly established constitutional right.” Slip
Op. 15. (Erickson, J., concurring). Nonetheless, Judge Erickson implored that “the
time has come to revise our precedent that ignores the known negative effects of
segregation and isolation.” Slip Op. 13-14. (Erickson, J., concurring). Accordingly,
Judge Erickson expressed that “the time has come to consider [scientific] literature
and reverse the precedent that stands for the proposition that isolation is not a
significant hardship with constitutional implications.” Slip Op. 15. (Erickson, J.,
concurring).
9.

Applicant timely petitioned for rehearing by panel and en banc.

Applicant’s Pet. for Reh’g by Panel and Reh’g En Banc, Oct. 16, 2019. While the
petition was pending, the majority amended its opinion. Slip Op., Nov. 26, 2019.
Subsequently, applicant’s petition was denied over dissents from Judges Grasz, Kelly,
and Erickson. Order Den. Pet. for Reh’g En Banc, Dec. 9, 2019 (attached hereto at
Attachment C).

5

10.

The petition for certiorari will demonstrate that review is warranted on

at least the following questions: (1) whether the affirmative defense of qualified
immunity can be waived or forfeited; and (2) whether Pearson v. Callahan, 555 U.S.
223 (2009), which permits courts to default to the clearly established prong of the
qualified immunity analysis, should be reconsidered.
11.

Good cause exists for an extension of time to prepare a petition for a writ

of certiorari in this case. In addition to undersigned counsel’s teaching
responsibilities at Northwestern University Pritzker School of Law, other substantial
commitments include:
•

A reply brief in the U.S. Court of Appeals for the Seventh Circuit in
Johnson v. Prentice, No. 18-3535, filed on February 10, 2020;

•

An amicus brief in the U.S. Court of Appeals for the Seventh Circuit
in Henry v. Hulett, No. 16-4234 (en banc), filed February 11, 2020;

•

An opening brief in the U.S. Court of Appeals for the Ninth Circuit
in Thomas v. Quintana, No. 19-55937, due February 26, 2020;

•

Oral argument in the U.S. Court of Appeals for the Seventh Circuit
Johnson v. Prentice, No. 18-3535, scheduled for March 30, 2020;

•

An opening brief due in the U.S. Court of Appeals for the Ninth
Circuit in Chavez v. Peters, No. 19-35244, due April 6, 2020; and

•

An opening brief due in the U.S. Court of Appeals for the Fourth
Circuit in DePaola v. Clarke, No. 19-7199, due April 6, 2020.

6

12.

An extension of time would permit undersigned counsel to provide the

sort of comprehensive analysis that that would aid this Court in determining whether
to grant certiorari.
13.

Applicant has not previously sought an extension of time from this Court.

14.

For the foregoing reasons, the application for a 60-day extension of time,

to and including May 8, 2020, within which to file a petition for a writ of certiorari in
this case should be granted.

7

Respectfully submitted,
/s/ Daniel M. Greenfield
DANIEL M. GREENFIELD
Counsel of Record
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
NORTHWESTERN PRITZKER SCHOOL
OF LAW
375 East Chicago Avenue
Chicago, IL 60611
(312) 503-8538
daniel-greenfield
@law.northwestern.edu
DAVID M. SHAPIRO
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
NORTHWESTERN PRITZKER SCHOOL
OF LAW
375 East Chicago Avenue
Chicago, IL 60611
(312) 503-0711
david.shapiro@law.northwestern.edu
AMIR H. ALI
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
777 6th Street NW, 11th Floor
Washington, DC 20001
(202) 869-3434
amir.ali@macarthurjustice.org
Counsel for Applicant
Charles Hamner

February 18, 2020

8

